TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Business Cases for Information Technology
                        Projects Remain Inaccurate



                                        January 25, 2007

                              Reference Number: 2007-20-024




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 January 25, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Business Cases for Information Technology
                               Projects Remain Inaccurate (Audit # 200620005)

 This report presents the results of our follow-up review on the Internal Revenue Service’s (IRS)
 management of information technology investments. The overall objective of the review was to
 determine whether the IRS took effective corrective actions to address the recommendations in
 our previous audit report.1 Also, we evaluated whether the IRS is managing its information
 technology investments in compliance with Office of Management and Budget (OMB) and
 Clinger-Cohen Act of 19962 requirements.

 Impact on the Taxpayer
 The IRS spends approximately $2 billion annually on information technology investments. In
 this follow-up review, we determined the IRS business cases used to manage and fund specific
 information technology investments remain inaccurate and unreliable. IRS business case
 inaccuracies distort the true life-cycle costs of information technology investments and present a
 false depiction of the IRS’ information technology portfolio, resulting in potential waste and
 mismanagement of taxpayer dollars.




 1
   Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074, dated
 April 2005).
 2
   Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                           Business Cases for Information Technology Projects
                                           Remain Inaccurate




Synopsis
The Federal Government invests over $60 billion in information technology investments
annually. Motivated to improve information technology budget stewardship, Congress enacted
legislation directing agencies to use better business practices to manage and report major
information technology investments. In April 2005, we issued a report that addressed whether
the IRS planned, managed, and controlled its information technology investments in compliance
with OMB and Clinger-Cohen Act requirements. We reported project costs had not been
reported accurately in the business cases, relevant cost and benefit information had been omitted,
progress on development projects had been measured inaccurately, and business cases for
operational projects did not demonstrate the results of an E-Government review.3
The IRS took several actions to address the weaknesses cited in our previous report; however,
most of the weaknesses remain unresolved. Specifically:
    •   Project costs are still being reported inaccurately. Costs cannot be substantiated, indirect
        costs for management and overhead are not allocated to projects, and security costs are
        not reported accurately.
    •   Progress on development projects continues to be measured inaccurately. Actual costs
        used in progress calculations were understated and baselines for cost and schedule are
        continually revised. In addition, the IRS did not review contractors’ procedures for
        tracking their cost and schedule information, as required.
    •   The Department of the Treasury’s programming of the software used to prepare business
        cases continues to contribute to inaccuracies in the business cases. Systemic problems
        with the software programming contributed to the total costs being reported
        inconsistently making it difficult to determine the projects’ true financial status.
    •   Two major systems were not included in the IRS budget submission for Budget
        Year4 2007, and a business case should have been prepared for an additional system
        based on the expected costs of the system. Failure to provide business cases for all
        required systems detracts from the OMB’s ability to allocate information technology
        funding and from the IRS’ ability to adequately monitor and manage the costs and
        benefits of its major systems.
We believe senior IRS executives and Department of the Treasury and OMB officials still cannot
rely on the data in these business cases to manage and fund the projects. Inaccurate information


3
  The E-Government Act of 2002 (Pub. L. No. 107-347) requires a comprehensive review and analysis to be
performed on existing computer systems and information technology investments to identify strategies for smarter
and more cost-effective methods of delivering performance.
4
  See Appendix V for a glossary of terms.
                                                                                                                   2
                       Business Cases for Information Technology Projects
                                       Remain Inaccurate



in business cases can distort viable alternative analysis and provide IRS executives with a false
assessment of the actual progress and costs of their information technology projects.

Recommendations
To make the business cases more reliable and useful, we recommended the Chief Information
Officer provide increased oversight to ensure Project Managers include complete and realistic
cost estimates for their projects, coordinate with the Department of Treasury Capital Planning
and Investment Control (CPIC) office to follow OMB guidance requiring allocation of all
management and labor costs to specific projects, provide additional oversight of Project
Managers to ensure sufficient care is taken in developing and reporting progress data, and ensure
reviews are conducted to determine whether contractors’ cost and schedule procedures comply
with industry standards. In addition, the Chief Information Officer should coordinate with the
Department of the Treasury CPIC office to program the ProSight system so the total life-cycle
costs are reported consistently and to implement access controls to ensure only authorized users
have access to the system. The Chief Information Officer should ensure the Director, CPIC,
reviews the IRS Federal Information Security Management Act Master Inventory of major
systems annually to ensure business cases are prepared for required projects.

Response
IRS management agreed with all seven of our recommendations. To increase oversight and
ensure that realistic costs are reported, the IRS CPIC office will prepare Exhibit 300 policies and
provide guidance and training to project managers. The IRS CPIC office will collaborate with
the Department of the Treasury to develop policies for allocating management and labor costs to
specific projects so they reflect the true cost of the investment, prepare Earned Value
Management reporting policies, and provide guidance and training to Project Managers and staff
to ensure Earned Value Management data are adequately prepared and disclosed. The IRS also
created the Application Development Program Management Office to provide increased
oversight over project cost and schedule information.
In addition, the IRS will work with the Department of the Treasury to develop a plan requiring
contractors to perform self-assessments and furnish a certificate of compliance or a strategy to
achieve compliance so that Earned Value Management data meets industry standards. To ensure
total life-cycle costs are reported consistently in business cases, the IRS CPIC office will work
with the Department of the Treasury and request modifications to the ProSight system and
request that only users authorized by Project Managers have “write” access to project data in the
ProSight system. The IRS CPIC office performed an ad hoc review of the IRS’ Federal
Information Security Management Act inventory to identify any major systems that are required
to have business cases prepared and will develop a process in its CPIC guide to address this
recommendation.
                                                                                                    3
                       Business Cases for Information Technology Projects
                                       Remain Inaccurate



The Chief Information Officer did not concur with our outcome measures reported in
Appendix IV of the report and disagreed that the IRS was putting millions of taxpayer dollars at
risk. The inconsistencies reported were primarily due to the omission of historical data (sunk
costs) in the ProSight system and the IRS is meeting with the Department of the Treasury to
correct the programming issues. Management’s complete response to the draft report is included
as Appendix VI.

Office of Audit Comment
Our position is to sustain the outcome measures. The outcome measures claimed in the report
are based on inaccurate, incomplete, and inconsistent cost information found in the sampled
business cases. Unreliable cost information reduces the usefulness of the business cases and
inhibits management’s ability to make fully informed project finance decisions, potentially
putting millions of taxpayer dollars at risk. We agree that correcting the ProSight system should
improve the consistency of cost information reported in the business cases.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Margaret E.
Begg, Assistant Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                4
                                Business Cases for Information Technology Projects
                                               Remain Inaccurate




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Project Costs Remain Inaccurate ..................................................................Page 3
                    Recommendations 1 and 2: ..............................................Page 6

          Progress on Development Projects Continues to Be Measured
          Inaccurately...................................................................................................Page 6
                    Recommendations 3 and 4: ..............................................Page 9

          The Department of the Treasury’s Programming of the ProSight System
          Continues to Contribute to Inaccuracies in Business Cases .........................Page 9
                    Recommendation 5:........................................................Page 11

                    Recommendation 6:........................................................Page 12

          Major Applications Were Omitted From the Budget Submission................Page 12
                    Recommendation 7:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Glossary of Terms .................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 22
         Business Cases for Information Technology Projects
                        Remain Inaccurate




                  Abbreviations

CADE           Customer Account Data Engine
CPIC           Capital Planning and Investment Control
EMS            Electronic Management System
EVM            Earned Value Management
FISMA          Federal Information Security Management Act
FMS            Financial Management System
ICCE           Integrated Customer Communications Environment
ICS            Integrated Collection System
IRS            Internal Revenue Service
MeF            Modernized e-File
OMB            Office of Management and Budget
SCRIPS         Service Center Recognition/Imaging Processing System
                            Business Cases for Information Technology Projects
                                           Remain Inaccurate




                                             Background

The Federal Government invests over $60 billion in information technology annually. Motivated
to improve information technology budget stewardship, Congress enacted legislation directing
agencies to use better business practices to manage and report major information technology
investments. The Clinger-Cohen Act of 19961 requires Federal Government agencies to improve
the way they acquire and manage their information technology investments. Agencies are
required to put their technology investment decisions in a true business context and analyze
investments for their return on investment. The Office of Management and Budget (OMB)
published Circular A-11, Preparation, Submission and Execution of the Budget, to assist Federal
Government agencies in complying with the Clinger-Cohen Act. This guidance includes two
key sections applicable to information technology capital planning. Section 300, Planning,
Budgeting, Acquisition, and Management of Capital Assets, provides guidance on the
preparation of business cases for information technology systems. Section 53, Information
Technology and E-Government, provides guidance on the preparation of an agency’s entire
Information Technology Investment Portfolio.
The Internal Revenue Service (IRS) spends approximately $2 billion annually on information
technology investments. The IRS uses business cases as the primary tool for capital planning
and investment control. These business cases provide a standard format for reporting key details
about the investment. The information contained in the business case assists IRS management in
evaluating an information technology investment’s costs, benefits, and risks. The business cases
also provide support for the IRS’ strategic goals and objectives when compared to other
competing information technology requirements. The IRS Capital Planning and Investment
Control (CPIC) office2 is responsible for establishing the processes that support business case
preparation and review and maintaining information technology investment process
documentation.
In April 2005, we issued a report3 that addressed whether the IRS planned, managed, and
controlled its information technology investments in compliance with OMB and Clinger-Cohen
Act requirements. We reported the IRS procedures for preparing information technology
business cases had improved, but managers were not complying with these requirements.

1
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
2
  The CPIC office reports to the Associate Chief Information Officer, Management, Capital Planning and Investment
Control.
3
  Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074, dated
April 2005).
                                                                                                             Page 1
                           Business Cases for Information Technology Projects
                                          Remain Inaccurate



Specifically, project costs had not been reported accurately in the business cases, relevant cost
and benefit information had been omitted, progress on development projects had been measured
inaccurately, sufficient information was not provided in the alternatives analysis section, and
business cases for operational projects did not demonstrate the results of an E-Government
review.4 Due to the number and significance of the conditions reported, we concluded that the
business cases could not be relied on to manage and fund the IRS’ information technology
projects.
We conducted this follow-up review to determine whether the IRS had taken corrective actions
to address the weaknesses in the report and whether those actions were effective. For this
review, we selected Budget Year5 2007 business cases for the following six major information
technology investment projects. See Appendix V for detailed descriptions of these investment
projects:
    •   Customer Account Data Engine (CADE).
    •   Electronic Management System (EMS).
    •   Integrated Customer Communications Environment (ICCE).
    •   Integrated Collection System (ICS).
    •   Modernized e-File (MeF).
    •   Service Center Recognition/Imaging Processing System (SCRIPS).
The CADE and MeF projects are referred to as development projects, which are information
technology systems currently being designed and built. The EMS, ICCE, ICS, and SCRIPS
projects are referred to as steady state projects, which are existing information technology
systems that generally require only maintenance and operational costs.
This review was performed at the IRS CPIC office in New Carrollton, Maryland, during the
period November 2005 through September 2006. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
  The E-Government Act of 2002 (Pub. L. No. 107-347) requires a comprehensive review and analysis to be
performed on existing computer systems and information technology investments to identify strategies for smarter
and more cost-effective methods of delivering performance.
5
  See Appendix V for a glossary of terms.
                                                                                                          Page 2
                      Business Cases for Information Technology Projects
                                     Remain Inaccurate



warning system for determining whether an investment project is performing on schedule and
within budget. EVM data contain information that management should use along with other
project indicators to manage a project.
The CADE and MeF projects reported favorable EVM data in their business cases. For example,
the CADE project reported that, as of June 2005, the project had spent the precise amount
estimated and had completed almost the exact amount of work planned from the time the project
was initiated in January 1999. The MeF project also reported near perfect performance in these
areas. However, we believe the EVM data in the CADE and MeF business cases did not provide
an accurate assessment of the projects’ budget and schedule performance for two reasons.
First, actual costs used in EVM calculations were understated. Actual costs incurred prior to
2003 and selected other costs, such as hardware, software, and Federal Government labor, were
not included in EVM calculations. Examples of the understatements include:
   •   The CADE project omitted $231 million (78 percent) of the total costs of $296 million
       incurred as of June 2005.
   •   The MeF project, which began October 2000, omitted $83 million (54 percent) of the
       total costs of $154 million incurred as of June 2005.
Second, changes to the baselines of estimated costs and completion dates undermine the
usefulness of the EVM data. The CADE and MeF projects have frequently obtained approval
from the OMB to change their estimated costs and work completion dates. Actual costs are then
measured against the new estimates.
The originally approved OMB baseline for the CADE project estimated it would be completed in
June 2009 for a cost of $327 million. Currently, the OMB has approved a revised baseline
estimate that the CADE project will be completed by December 2012 for a cost of $1.802 billion.
This is a nearly $1.5 billion increase and a 3-year overrun; however, the current EVM data show
the project is on time and within budget. The CADE project’s Budget Year 2007 business case
proposes an additional revised baseline to increase total project cost to $1.829 billion, a
$1.502 billion increase over the original OMB baseline.
The originally approved OMB baseline for the MeF project estimated it would be completed in
September 2019 for a cost of $509 million. Currently, the OMB has approved a revised baseline
estimate that the MeF project will be completed in September 2020 for a cost of $638 million, an
increase of $129 million and a 1-year overrun. The MeF project’s Budget Year 2007 business
case proposes an additional revised rebaseline to increase total project cost to $673 million, a
$164 million increase over the original OMB baseline.
In general, the IRS will request a revised baseline every time the project budget changes.
Consequently, very little variance is ever reported between planned and actual costs. Business
cases do not disclose the percentage of costs for which earned value is not calculated and the
number of times a project has been rebaselined. These disclosures would help explain how the
                                                                                         Page 7
                             Business Cases for Information Technology Projects
                                            Remain Inaccurate



comply with industry standards, the IRS and the OMB cannot rely on the business case
information.

Recommendations
To ensure EVM data are accurately computed and disclosed in IRS business cases, the Chief
Information Officer should:
Recommendation 3: Provide additional oversight of Project Managers to ensure sufficient
care is taken in developing and reporting EVM data. Each Project Manager should disclose all
significant facts related to the EVM data, including the significant percentage of costs omitted
from earned value calculations and the number of times the project has been rebaselined. These
disclosures would help explain how the investment is able to achieve its high performance
standards.
           Management’s Response: The IRS agreed with our recommendation. The IRS
           CPIC office will prepare EVM reporting policies to encompass all aspects of this
           recommendation, and will provide guidance and training to project managers and relevant
           staff. In addition, the Application Development Program Management Office will
           provide increased oversight over EVM data.
Recommendation 4: Ensure reviews are conducted to determine whether contractors’ EVM
systems comply with industry standards. Noncompliance and failure to conduct the reviews
should be disclosed.
           Management’s Response: The IRS agreed with our recommendation. The IRS will
           work with the Department of the Treasury to develop a plan requiring contractors to
           perform self-assessments and to furnish a Cognizant Federal Agency certificate of
           compliance or a strategy to achieve compliance. To ensure contractor compliance, the
           plan will include the approach for criteria, roles, and review cycle along with the
           approval, review, and certification process.

The Department of the Treasury’s Programming of the ProSight
System Continues to Contribute to Inaccuracies in Business Cases
We had previously identified a problem in the Department of the Treasury’s ProSight system8
that contributed to inaccuracies in the EVM section of IRS business cases. While the IRS had
corrected the programming error in the ProSight system cited in our previous report, additional
systemic problems contributed to the IRS’ inconsistent reporting of the total investment costs for
all six business cases we reviewed. Total costs were reported inconsistently throughout the


8
    The ProSight system is the Department of the Treasury software used by the IRS to prepare business cases.
                                                                                                                Page 9
                           Business Cases for Information Technology Projects
                                          Remain Inaccurate



business cases, which affected the reliability of the business cases. In addition, a lack of access
control to the ProSight system allowed multiple users to make changes to business cases. As a
result, accountability for the accuracy of data could not be established.
Total costs were reported inconsistently throughout the business cases
IRS guidance for preparing business cases states there should be no surprises or inconsistencies
across the sections of the business case. Inconsistencies create confusion and hinder the
readability throughout the business case.
The costs of all six business cases we reviewed were reported inconsistently in different sections
of the same business case, which made it difficult to determine the accurate cost of the
investment. For example, the Summary of Spending table9 in the first part of the business case
reports the total cost of the CADE investment as $1.829 billion. The Alternatives Analysis
table10 reports the total cost as $1.569 billion. The difference of $260 million represents the costs
for Budget Year 2004 and prior years. We found this inconsistency in each business case we
reviewed, as illustrated in Table 1.
                      Table 1: Total Cost of Investment As Reported in
                          Different Sections of the Business Case

                                 Summary of Spending     Alternatives Analysis    Difference
                      Project      Table (in millions)    Table (in millions)    (in millions)

                       CADE             $1.829                  $1.569              $260


                       EMS               $175                    $44                $131


                       ICCE              $460                    $198               $262


                        ICS              $372                    $51                $321


                        MeF              $673                    $555               $118


                      SCRIPS             $142                    $129                $13


                   Source: IRS Budget Year 2007 business cases.

The discrepancies between the Summary of Spending and Alternatives Analysis cost tables are
directly attributable to how the Department of the Treasury CPIC office programmed the

9
  The Summary of Spending table provides an overview of the costs for planning, acquisition, maintenance, and
labor for the previous, current, and budget fiscal years.
10
   The Alternatives Analysis table provides a summary of the comparison of viable alternative solutions that
includes a general rationale and analysis of the monetary benefits for each alternative presented.
                                                                                                        Page 10
                              Business Cases for Information Technology Projects
                                             Remain Inaccurate



Spending and Alternatives Analysis tables and actual project costs are reported consistently in
the Summary of Spending and Actual Performance tables. Project Managers should ensure the
data are reported consistently.
           Management’s Response: The IRS agreed with our recommendation. The IRS
           CPIC office will present this recommendation to the Department of the Treasury CPIC
           office. It will request modifications to the ProSight system so that total reported lifecycle
           and actual project costs are consistent in the Summary of Spending and Alternative
           Analysis tables.
           The Chief Information Officer did not concur with our outcome measures reported in
           Appendix IV of the report and disagreed that the IRS was putting millions of taxpayer
           dollars at risk. The inconsistencies reported were primarily due to the omission of
           historical data (sunk costs) in the ProSight system and the IRS is meeting with the
           Department of the Treasury to correct the programming issues.
           Office of Audit Comment: Our position is to sustain the outcome measures. The
           outcome measures claimed in the report are based on inaccurate, incomplete, and
           inconsistent cost information found in the sampled business cases. Unreliable cost
           information reduces the usefulness of the business cases and inhibits management’s
           ability to make fully informed project finance decisions, potentially putting millions of
           taxpayer dollars at risk. We agree that correcting the ProSight system should improve the
           consistency of cost information reported in the business cases.
Recommendation 6: Coordinate with the Department of the Treasury CPIC office to
implement system access controls to ensure only users authorized by Project Managers have
access to project data in the ProSight system.
           Management’s Response: The IRS agreed with our recommendation. The IRS
           CPIC office will present this recommendation to the Department of the Treasury CPIC
           office. It will request modifications to the ProSight system so only users authorized by
           Project Managers have “write” access to project data in the ProSight system.

Major Applications Were Omitted From the Budget Submission
The OMB requires that all major applications be included in an agency’s budget submissions.
The IRS CPIC office has issued guidance that requires business cases to be prepared for any
major information technology system with budgetary outlays of over $5 million per year. We
compared the list of major systems the IRS uses for the Federal Information Security
Management Act (FISMA)12 to the list of systems reported on the IRS OMB budget submission
for Budget Year 2007 to determine whether all systems were reported and business cases had

12
     Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                                Page 12
                      Business Cases for Information Technology Projects
                                     Remain Inaccurate



been prepared for the required systems. We identified two major systems (the Electronic Levy
System and the Offshore Credit Card Project Application) that were listed on the IRS FISMA
Master Inventory list but not included on the IRS OMB budget submission. In addition, a
business case had not been prepared for the Automated Collection System although its projected
annual costs exceeded $5 million. Failure to provide business cases for all required systems
detracts from the OMB’s ability to allocate information technology funding and from the IRS’
ability to adequately monitor the costs and benefits of its major systems. The IRS CPIC office
had not ensured business cases were prepared for all major systems.
The Department of the Treasury recently issued guidance that requires bureaus to ensure all
FISMA major systems are covered by an investment that is reported in the CPIC inventory
submitted to the OMB for the Budget Year 2008 reporting cycle, starting in September 2006.
The IRS has started this process by completing a comparison of FISMA and CPIC applications.

Recommendation
To ensure information technology systems are reported consistently:
Recommendation 7: The Chief Information Officer should ensure the Director, CPIC,
reviews the IRS FISMA Master Inventory of major systems annually to ensure business cases are
prepared for required projects.
       Management’s Response: The IRS agreed with our recommendation. The IRS
       CPIC office performed an ad hoc review of the IRS’ FISMA inventory for Fiscal Year
       2007 to identify major systems. The office will develop a process for inclusion in the
       CPIC guide and will publish the process in the CPIC “Newsflash.”




                                                                                        Page 13
                            Business Cases for Information Technology Projects
                                           Remain Inaccurate




                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS took effective corrective
actions to address the recommendations in our previous audit report.1 Also, we evaluated
whether the IRS is managing its information technology investments in compliance with OMB
and Clinger-Cohen Act of 19962 requirements. To accomplish this objective, we:
I.       Determined whether project costs were accurately reported in the business cases.
         A. For the six projects selected for this audit,3 reviewed the Project Managers’
            performance plans to determine whether updates were made to the performance plans
            to hold Project Managers accountable for ensuring all sections of the business case
            are consistent, accurate, complete, and supported by documentation. From a total of
            28 investments for which business cases were prepared in Budget Year 2007, we
            judgmentally selected 6 information technology investments with the highest costs
            according to the September 2005 IRS Budget Year 2007 Exhibit 53. These included
            two modernization and four operational investments. We used a judgmental sample
            because we did not plan to project our audit results.
         B. Determined whether adequate training and guidance were provided to Project
            Managers to ensure the accuracy of business cases.
         C. Reviewed the IRS Budget Year 2007 Exhibit 53 to determine whether management
            and overhead labor costs were separately reported.
         D. Determined whether security costs were accurately reported in the six business cases
            reviewed.
         E. Determined whether IRS direct labor costs were included in the total project costs in
            the Summary of Spending table, which is in the first part of the Exhibit 300.
         F. Determined whether project-specific infrastructure (hardware and software) costs
            were included in each project’s business case.

1
  Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074, dated
April 2005).
2
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
3
  The CADE, EMS, ICS, ICCE, MeF, and SCRIPS projects. See Appendix V for a glossary of terms.
                                                                                                            Page 14
                      Business Cases for Information Technology Projects
                                     Remain Inaccurate



       G. Reviewed supporting documentation for key costs reported in the six business cases.
       H. Determined whether work performed by contractors was reviewed by the IRS Project
          Managers before data and calculations were input to the business cases.
       I. Determined whether the Enterprise Life Cycle directive signed on August 24, 2004,
          required a comprehensive evaluation and selection report, including costs, on all
          commercial off-the-shelf products that are considered for new IRS systems.
II.    Determined whether progress on development projects was measured accurately.
       A. Determined whether the IRS CPIC office provided training and guidance to Project
          Managers on how to complete the EVM section of business cases.
       B. Reviewed supporting documentation for the key EVM calculations presented in each
          business case to determine whether the EVM calculations were accurate, up-to-date,
          and consistently reported throughout the business case. We also determined whether
          IRS Project Managers verified whether their contractors’ EVM systems were
          compliant with industry standards.
       C. Determined whether the tables in the business cases were correct and consistent
          where appropriate.
       D. Determined whether the IRS coordinated with the necessary parties to correct
          programming in the ProSight system that caused inaccuracies in the business cases.
          The ProSight system is used to report IRS and Treasury Department business cases.
III.   Determined whether the four operational projects’ business cases demonstrated the
       results of an E-Government review.
IV.    Determined whether the IRS made progress in preparing a business case for each major
       investment.




                                                                                       Page 15
                      Business Cases for Information Technology Projects
                                     Remain Inaccurate




                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Acting Director
Thomas Polsfoot, Audit Manager
Jody Kitazono, Lead Auditor
W. Allen Gray, Senior Auditor
Bret Hunter, Senior Auditor
Thomas Nacinovich, Senior Auditor




                                                                                     Page 16
                     Business Cases for Information Technology Projects
                                    Remain Inaccurate




                                                                         Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Chief, Mission Assurance and Security Services OS:MA
Associate Chief Information Officer, Applications Development OS:CIO:B
Director, Capital Planning and Investment Control OS:CIO:M:CP
Director, Financial Management Services OS:CIO:M:FM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Information Officer OS:CIO




                                                                                   17
                       Business Cases for Information Technology Projects
                                      Remain Inaccurate



Baseline changes:
CADE project (increase from original estimate)                                 $1.475 billion
MeF project (increase from original estimate)                                   $129 million
Total                                                                          $1.604 billion

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $1.40 billion (see page 9). Total costs were reported
    inconsistently throughout the business cases, which affected the reliability of the business
    cases.
Methodology Used to Measure the Reported Benefit:
Spending and Alternatives Tables: Absolute of difference                       $1.105 billion
Spending and Actual Performance Tables:
    a. ICS project difference                                                   $287 million
    b. EMS project difference                                                      $9 million
Total                                                                           $1.40 billion

Grand Total ($199.48 million plus $1.92 billion plus $1.40 billion)             $3.52 billion




                                                                                           Page 19
                        Business Cases for Information Technology Projects
                                       Remain Inaccurate




                                                                                  Appendix V

                                Glossary of Terms

Automated Collection System
The Automated Collection System is a computerized inventory system which maintains balance
due and nonfiler cases requiring telephone contact for resolution.
Budget Year
The Budget Year refers to a future fiscal year (October 1 – September 30) which is the subject of
the budget planning process.
Customer Account Data Engine (CADE)
The CADE is the foundation for managing taxpayer accounts in the IRS’ Business Systems
Modernization effort and will eventually replace the existing Master File databases, which are
the IRS’ central and official repository of taxpayer information.
Electronic Levy System
The Electronic Levy System enables IRS tax examiners and clerks to review levies prior to
printing and requires only levies with flagged errors to be reviewed. The system eliminates time
and paper costs associated with a manual review and the retyping of erroneous levies
Electronic Management System (EMS)
The EMS is a processing system that receives, validates, stores, and forwards electronic tax
return information to electronic filing systems. This System also provides acknowledgment of
electronic tax returns received and is the principle electronic gateway for electronic commerce to
and from the IRS.
Enterprise Life Cycle
The enterprise life cycle establishes a set of repeatable processes and a system of reviews,
checkpoints, and milestones that reduce the risks of system development and ensure alignment
with the overall business strategy.
Integrated Customer Communications Environment (ICCE)
The ICCE provides customer service applications through toll-free telephone service and the
Internet. The toll-free telephone service provides automated self-service applications that allow
taxpayers to help themselves, as well as avenues to route taxpayers to live customer service
representatives. The Internet component of the ICCE allows taxpayers to check refund status.

                                                                                          Page 20
                       Business Cases for Information Technology Projects
                                      Remain Inaccurate



Integrated Collection System (ICS)
The ICS is an information management system designed to improve revenue collections by
providing revenue officers access to the most current taxpayer information, while in the field,
using laptop computers for quicker case resolution and improved customer service.
IRS Exhibit 300 Business Case Guide
The Capital Planning and Investment Control Office developed the Exhibit 300 Business Case
Guide to assist project team members in preparing “budget quality” Exhibit 300s for submission
to higher authority. The Guide addresses content requirements of the business case and provides
insight to program and project managers regarding the quality of information required to obtain
OMB budget approval.
Modernized e-File (MeF)
The MeF system modernizes the IRS’ existing electronic filing system, providing an Internet-
based electronic filing application that taxpayers can use to file IRS forms.
Offshore Credit Card Application
This application is designed to analyze, display, and report information received from summons
issued to financial institutions, credit card companies, and third-party processors of financial
information which may identify individuals who are illegally sheltering money offshore.
Service Center Recognition/Imaging Processing System (SCRIPS)
The SCRIPS is a data capture, management, and storage system that uses high-speed scanning
and digital imaging technology to process tax documents.




                                                                                           Page 21
       Business Cases for Information Technology Projects
                      Remain Inaccurate




                                                  Appendix VI


Management’s Response to the Draft Report




                                                            Page 22
Business Cases for Information Technology Projects
               Remain Inaccurate




                                                     Page 23
Business Cases for Information Technology Projects
               Remain Inaccurate




                                                     Page 24
Business Cases for Information Technology Projects
               Remain Inaccurate




                                                     Page 25
Business Cases for Information Technology Projects
               Remain Inaccurate




                                                     Page 26
Business Cases for Information Technology Projects
               Remain Inaccurate




                                                     Page 27
Business Cases for Information Technology Projects
               Remain Inaccurate




                                                     Page 28
